0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Petition for Writ
of Certiorari in Delta Air Lines, Inc. v. Dev Anand
Oman, Todd Eichmann, Albert Flores, and Michael
Lehr, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 9th day of September, 2021:
Matthew C. Helland
Daniel S. Brome
Nichols Kaster, LLP
235 Montgomery Street
Suite 810
San Francisco, CA 94104
(415) 277-7235
helland@nka.com
dbrome@nka.com
Counsel for Respondents
Paul D. Clement
Counsel of Record
George W. Hicks, Jr.
Julie M.K. Siegal
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 9, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
,..ebruary 14, 2023

